Case: 1L..193

Document: 57-2

Filed: 06/0^,2020

Page: 1

(2 of 7)

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0324n.06
Nos. 19-3193/3197
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.

PHILLIP WATKINS,
Defendant-Appellant.

Jun 05, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE
UNITED STATES DISTRICT
COURT FOR THE SOUTHERN
DISTRICT OF OHIO

BEFORE: MOORE, SUTTON, and GRIFFIN, Circuit Judges.
GRIFFIN, Circuit Judge.
Defendant Phillip Watkins pleaded guilty to conspiring to possess and distribute heroin
laced with other controlled substances which resulted in serious bodily injury and to witness
tampering. The district court sentenced him to serve three hundred months in prison. Defendant
appeals the district court’s denial of his motions to withdraw his guilty plea and for an evidentiary
hearing. We affirm.
I.
It is well-established that “[a] defendant has no right to withdraw his guilty plea.” United
States v. Martin, 668 F.3d 787, 794 (6th Cir. 2012). Instead, he must demonstrate a “fair and just
reason for requesting the withdrawal.” Fed. R. Crim. P. 11(d)(2)(B). “[T]he aim of th[is] rule is
to allow a hastily entered plea made with unsure heart and confused mind to be undone, not to

I

I

Case; 19-5
Nos. 'MI9M197,

3

Document: 57-0
Filed: 06/05/. ,20

otes v. Watkins
3/10\y

J

a defendant 10

a withdrawal if he
Alexander. 948 F.2d
district

Page;2

make a tactical decisi

believes that he

°ti to enter a Ptea, wait several weeks.
and thefi obtain

made a bad choice in pieadjn

1002, 1004 (6th Cir.

o guilty.
] 991) (per

curiam) (citation
omitted). We review a
motion to w/thdra
uraw
3
guilty
plea
for
ab
v- Bento”7 639 F.3d 723, 726
use of discretion.
United States
27 (6th Cir. 2011).
Wheth
era defendant satisfies the “fair, ncourt’s denial of a

oftheci rcumstances, which we evaluate using the fo^ ^
W tte amount of tim m

^^

foi^mg seven factors:

«S5jSSS5£S£3SSs'

government if the mot!

^ a

^

withdraw « granted.
1 j P°teM,ai Prejudice to the
v. 7?a,A„
W’ 27 F-3d i J74 J]j?j
’ 1181 (6th Cir. 1994),
amendment °n othergrounds,
superseded b
U-S.S.G.§3BI.,. Tfcg^
y guidelines
no one factor is
ns
are
a
general,
controlling.”
non-excfusive list and
ofey v. Bazzi,
94 P.3d 1025,
c"™"4 “The relevance
,027 (6th Cir.
of each factor will
1996) (per
Var7
accordifi
original
8 to the circ
entrance ofthep|ea
umstances.s
as well
Grounding the
35 the motion
549 F.3d 1049,
to withdraw.”
1052 (6th Ci
,r* 2008) (c-itati
on and iinternal quotation
court concluded
marts om/ned). Thedistrfc,
none of the Bash
ara factors weighed in defendant’
We find no
^eofdiscretioni.nth.s
s favor a«d denied his motion.
ruling.
^ Z>e/wee77
ihe plea and the
September 7, 2017
>O «»**. DefwdM ^
Ninety-eight da
guilty on
requesting to withdraw his Plea.
Pro se letter
owing the withdraws/ of counsel
bearing, his ne
w counsel
and a
renewed that
competency
motion. Giving Wa(tjns tte be
nefit °f the first-filed
motion, ,

Jfc 'r;onDe“—o7,tefiWa
-2-

(3 of'

Case: 19.. .93

Document: 57-2

Filed: 06/0.^.020

Page: 3

' (4Ttf7)

Nos. 19-3193/3197, United States v. Watkins
this factor is of no help to him. See Marlin, 668 F.3d at 795 (collecting cases where we have
"‘found shorter periods”—seventy-seven, sixty-seven, and thirty-six days-—“to be excessive”).
Reasonfor the delay. Watkins claims he delayed filing his motion because he was waiting
to consult with counsel (whom he criticizes for providing inadequate representation). The district
court found this excuse unpersuasive, noting several instances where defendant communicated
directly with the court during the same time period, finding curious the October 12, 2017 drafting
date (the same date the presentence report was forwarded to his counsel), and commenting that if
his complaints about counsel were true, a delay to communicate with that same counsel “makes
no sense.” This reasoning is well-supported.
Assertion or maintenance of innocence. “When a defendant has entered a knowing and
voluntary plea of guilty at a hearing at which he acknowledged committing the crime, the occasion
for setting aside a guilty plea should seldom arise.” United States v. Ellis, 470 F.3d 275, 280 (6th
Cir. 2006) (citation omitted). Here, Watkins admitted that he sold controlled substances that
resulted in a drug overdose and that he subsequently planned and attempted to murder that victim
after discovering she was going to testify against him. To be sure, Watkins presented technical
challenges to his indictment before he pleaded guilty and generically expressed in his motions to
withdraw that the allegations were “untrue and exaggerated.” But upon review of the record, we
conclude that these assertions fall well short of “vigorous and repeated protestations of innocence”
our caselaw requires to support a motion to withdraw a guilty plea. United States v. Baez, 87 F.3d
805,809 (6th Cir. 1996).
. Circumstances underlying the plea. Watkins maintains that the stresses associated with
being in solitary confinement while awaiting trial “force[d him] to take a plea [he] did not want to
take.” He asserts he pleaded guilty so that he could be released from solitary confinement because
-3-

Case: 19-3_^3

Document: 57-2

Filed: 06/05/.. .20

Page: 4

’ (5ofV)

Nos. 19-3193/3197, United. Stales v. Watkins
that is what his attorney purportedly told him.

And he claims his isolation limited his

communications with his attorneys and his ability to defend his case. Yet his statements to the
district court reflect the opposite. The district court asked whether “anyone made any promise or
assurance that is not in the plea agreement to persuade you to accept this agreement." Watkins
responded in the negative.

He acknowledged he was fully satisfied with his counsel’s

representation and that he was pleading guilty on his own free will, as well as denied that he was
being forced to do so. Absent extraordinary circumstances, when the Rule 11 procedures are “fully
adequate,’ we hold a defendant pleading guilty to the statements he makes at his plea hearing. See,
e.g.. Baker v. United Slates, 781 F.2d 85, 90 (6th Cir. 1986). The district court found no reason to
set aside Watkins’ statements under oath, and we agree.1
Defendant's nature and background.

This factor weighs against Watkins too.

He

completed the twelfth grade, demonstrated in his pro se filings that “he is a very capable reader
and writer,” and presented to the district court as “lucid, competent[,] and attentive.” Further , we
note that the district court ordered a competency exam post-motion to withdraw, but that exam
concluded defendant at that later time “possesses a rational and factual understanding of the
proceedings against him, has the capacity to assist legal counsel in his defense, and can adequately
make decisions regarding his legal strategy.” We agree with the district court that these facts do
not support defendant’s motion to withdraw his plea; instead, they “strongly suggest[] that there is
nothing in his nature and background that would prevent him from understanding to what he was
pleading.” Martin, 668 F.3d at 796-97.

'To the extent Watkins suggests the district court erred in finding him competent t<? plead
guilty, he has forfeited our consideration of this issue because he did not include it in his statement
of issues. United States v. Calvetti, 836 F.3d 654, 664 (6th Cir. 2016).
-4-

Case: 19,. ...,93

Document: 57-2

Filed: 06/0^.^020

Page: 5

Nos. 19-3193/3197, United States v. Watkins
Defendant’s prior experience with the criminal justice system. Below. “[t]he parties
agree[d] that Watkins has significant prior contacts with the criminal justice system, including a
prior felony drug trafficking conviction.” Given this, and his proven ability to communicate pro
se, the district court concluded Watkins “demonstrate[d] a relatively high level of sophistication
regarding the judicial system,” which weighed against permitting withdrawal. Watkins does not
contest this factor.
Potential prejudice to the government. Finally, because Watkins failed to establish any
fair and j ust reason to withdraw his gui lty plea, the government need not establish prejudice. Ellis,
470 F.3d at 285-86. And even if it did, we are confident in the district court’s conclusion that this
factor also weighed against Watkins because “[tjhere is an extremely high risk that necessary
witnesses may no longer be available now that [four] years have passed since the criminal activities
occurred. In addition, memories fade, and Watkins has already admitted to attempting to influence
a witness’ availability.”
For these reasons, the district court did not abuse its discretion when it denied Watkins’
motion to withdraw his guilty plea.
II.
After the district court denied defendant’s motion to withdraw, he moved for
reconsideration.

Included in his motion was a perfunctory and unsupported request for an

evidentiary hearing. The district court summarily denied it. Whether to conduct an evidentiary
hearing to evaluate the merits of a motion to withdraw falls within “the wide discretion of the
district court, which we review for abuse of discretion.” United States v. Woods, 554 F.3d 611,
613 (6th Cir. 2009).

-5-

'** (6‘or 7)

Case: 19-3i

;

Document: 57-2

Filed: Q6/0511

3

Page: 6

Nos. J 9-3193/3197, United States v. Watkins
In challenging that denial on appeal. Watkins raises new grounds for why the district court
should have held an evidentiary hearing (relating in large part to the tribulations of solitary
confinement). But having failed to present these to the district court, we see no reason to condone
his attempt to raise a “better case fashioned after a district court’s unfavorable order.” Estate of
Barney v. PNC Bank, 714 F.3d 920,925 (6th Cir. 2013). Moreover, it is unmeritorious; the district
court did not abuse its discretion by denying defendant’s unsupported and belated request for an
evidentiary hearing.
III.
For these reasons, the district court did not abuse its discretion when it denied defendant’s
motions to withdraw' his guilty plea and for an evidentiary hearing.

-6-

‘ (7 of 7)

Case: l:17-cr-00038-SJD Doc #: 50 Filed: 08/22/18 Page: 1 of 16 PAGEID #: 239

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
UNITED STATES OF AMERICA

Case Nos.

l:16-cr-89
1:17-cr-38

Plaintiff,
Judge Susan J. Dlott
v.
ORDER DENYING DEFENDANT’S
SECOND MOTION TO WITHDRAW
GUILTY PLEA

PHILLIP WATKINS,
Defendant.

This matter is before the Court on Defendant’s Second Motion to Withdraw His Guilty
Plea (Doc. I34).1 For the reasons set forth below, Watkins’ motion will be DENIED.

I.

BACKGROUND
On August 21, 2016, police officers reported an overdose to Heroin Task Force Officers.

(Doc. 1 at PagelD 3.) The overdose victim (“CS16-11”) was not breathing when s/he was found
unresponsive in a vehicle but had become responsive after emergency medical personnel
administered Narcan. (Id.) CS16-11 indicated s/he purchased heroin from a couple now known
to be Watkins and his co-defendant. CS16-11 engaged in a series of controlled buys of heroin
and carfentenil from the couple, and Watkins and his co-defendant were arrested. (Id. at PagelD
3-11.) On September 21,2016, a federal grand jury returned a seven-count indictment charging
them with one count of conspiracy to possess with intent to distribute heroin and carfentanil
resulting in serious bodily injury in violation of 21 U.S.C. § 846, five counts of distributing

1 Case 1:16-cr-89 and Case 1:17-cr-38 are related actions. Watkins filed his Second Motion to Withdraw His Guilty
Plea in both cases. (Doc. 134 in Case 1:16-cr-89 and Doc. 48 in Case 1:17-cr-38.) For simplicity and consistency,
the Court will refer to document numbers and PagelD numbers in Case 1:16-cr-89 unless otherwise specified.

1

Case: l:17-cr-00038-SJD Doc #: 50 Filed: 08/22/18 Page: 2 of 16 PAGEID #: 240

heroin and carfentanil in violation of 21 U.S.C. § 841, and one count of operating a drug
involved premises in violation of 21 U.S.C. § 856. (Doc. 16.)
On December 21,2016, a federal grand jury returned an 11-count superseding indictment
adding additional counts relating to the heroin and carfentanil trafficking and “resulting in death”
allegations to the conspiracy count. (Doc. 32.) The Government later filed a second superseding
indictment (Doc. 82) and a notice of intent to use Defendant’s previous Hamilton County felony
drug trafficking conviction for sentencing enhancement pursuant to 21 U.S.C. § 851. (Doc. 106.)
While Watkins was detained pending trial on the drug-related charges, officers
intercepted letters Watkins sent through an intermediary disclosing the name, address, and
personal details of a confidential witness whom Watkins believed planned to testify against him
and urging recipients to burn or destroy the letters after reading them. (See Doc. 28 in Case
1:17-cr-38.) Once the letters were intercepted, the Government moved the witness to a safe
location. Watkins was moved from general population to solitary confinement, and his codefendant’s attorney moved for a “No Contact” Order against Watkins. (Doc. 42.)
On March 15, 2017, a federal grand jury returned a three-count indictment charging
Watkins with tampering with a witness with intent to murder the witness, tampering with a
witness by corrupt persuasion, and use of interstate commerce facilities in the commission of
murder-for-hire, in violation of 18 U.S.C. § 1512 and 18 U.S.C. § 1958. This indictment is the
basis of the related case, 1:17-cr-38. (Doc. 1 in Case 1:17-cr-38.)
After Watkins was indicted on the witness tampering and murder-for-hire charges, he
requested new counsel, and the Court granted his request. (Doc. 65.) When Watkins’ new
counsel indicated that the volume of discovery was difficult for a sole practitioner to handle, the
2

Case: l:17-cr-00038-SJD Doc #: 50 Filed: 08/22/18 Page: 3 of 16 PAGEiD #: 241

Court appointed co-counsel from a large law firm with extensive experience in complicated
criminal matters to assist him. (Doc. 74.)
On September 7, 2017, Watkins entered into a plea agreement. (Doc. 107.) By the terms
of the plea agreement, Watkins would plead guilty to Count 1 in Case 1:16-cr-89 (conspiracy to
possess and distribute a controlled substance resulting in serious bodily injury) and Count -1 in
Case 1:17-cr-38 (tampering with a witness by attempting to kill). In exchange, the Government
would dismiss the remaining counts in both cases and withdraw its Section 851 notice for
sentencing enhancement based on a prior drug-trafficking conviction. (Id. at PagelD 331.) The
plea agreement called for an agreed sentence of 240 to 300 months plus supervised release, a fine
to be determined by the Court, and a $200 mandatory special assessment. (Id. at PagelD 330.)
Watkins signed the plea agreement shortly below the paragraph in which he acknowledges:
[Tjhat he has read and understands this plea agreement; that he
accepts this plea agreement knowingly and voluntarily and not as a
result of any force, threats, or promises, other than the promises in
this plea agreement; that he has conferred with his attorney
regarding this plea agreement. . . and that he is fully satisfied with
[his attorneys’] representation, advice, and other assistance.
(Id. at PagelD 332-33.)
The same day, Watkins appeared before this Court accompanied by both of his attorneys
and entered a change of plea. (Doc. 115.) During the change of plea hearing, Watkins indicated
that he believed his attorneys were fully informed about the facts and circumstances of his case.
and he was fully satisfied with their representation and advice. (Id. at PagelD 357.) The Court
informed Watkins that the mandatory sentence on the drug conspiracy charge was 20 years to
life, and Watkins stated that he understood. (Id.) In addition, the Court informed Watkins that

3

Case: l:17-cr-00038-SJD Doc #: 50 Filed: 08/22/18 Page: 4 of 16 PAGEID #: 242

the maximum penalty for the witness tampering charge was 30 years, and he indicated that he
understood. {Id. at PagelD 358-59.)
During the entire Rule 11 colloquy, Watkins appeared lucid, competent and attentive.
When the Court asked his attorneys if they had any reason to doubt his competence to change his
plea, one of his attorneys responded, “Judge, in interaction with our client over the last two
months, I’ve found him to be extremely lucid. He understands what’s going on, and 1 have no
doubt that he’s competent.” {Id. at PagelD 356.)
The Assistant United States Attorney summarized the plea agreement in open Court, and
Watkins and his Counsel all affirmed the plea agreement. {Id. at PagelD 369-71.) Watkins then
affirmed again that he was pleading guilty of his own free will and because he is in fact guilty.
{Id. at PagelD 370.)
A Task Force Officer read the allegations against Watkins in open court, including that
Watkins and his co-defendant sold “Victim Two” controlled substances which resulted in Victim
Two’s drug overdose, loss of consciousness, and respiratory failure until revival by emergency
medical personnel. The Officer further stated, “Watkins planned and attempted to murder
Victim Two because Watkins believed Victim Two was going to testify against him in the
narcotics case.” {Id. at PagelD 371-72.) The Court asked Watkins if what the Task Force
Officer said was correct, and Watkins answered “Yes, ma’am.” {Id. at 372.) The Court asked
Watkins if what the Task Force Officer said was in any way incorrect, and Watkins answered,
“No, ma’am.” {Id.)
The Court then asked Watkins again if he was offering to plead guilty to these two
charges because he was in fact guilty of these charges, and Watkins responded, “Yes, ma’am.”
{Id. at PagelD 372-73.) The Court asked Watkins one final time how he would like to plead in
4

Case: l:17-cr-00038-SJD Doc#: 50 Filed: 08/22/18 Page: 5 of 16 PAGEID #: 243

light of everything that was said in open court, and Watkins responded, “Gui lty .” {Id. at PagelD
373.) The Court ultimately concluded that-—after observing Watkins’ appearance and
responsiveness—the plea.was knowing and voluntary and supported by an independent basis in
fact..- {Id.)

*

- /y, r • •

it

;

"•

From September 7, :201.7-through October 27, 2017, the Court did not hear from Watkins
even though Watkins obviously knew how to file a motion or letter.;(See Docs: 92 through' 104.)
In October, November, and early December, Watkins' attorneys filed Motions to Extend

■ .

Deadlines for Objections,to the Initial Presentence lnyestigation Report, which the Court
granted. (Docs. .113, 116, 117, 119, 128.) •
On December 14, 2017, the Court received a pro se “Letter” from Watkins that the Court
construed as a Motion to Withdraw his Guilty Plea. (Doc. 120.) In it, Watkins contends that he
should be entitled to withdraw his guilty plea because—during his nine and one half month stay
in solitary confinement—he was unable to properly access the law library or communicate with
his family effectively to prepare his defense or make proper legal decisions. {Id. at PagelD 390.)
• ^*3; •

>

He further alleges that his isolation “caused me a lot of stress, and duress giving counsel the
opportunity to [j represent me ineffectively.”. {Id. at PagelD 391.)

;.

After conducting a brief hearing regarding the pro se Letter/Motion, .the Court granted" <
Watkins’ attorneys’ Motions to Withdraw as Counsel and appointed new counsel for him.
(Minute Entry dated January 5, 2018.) Meanwhile, Watkins continued to write to the Court
directly. (Docs. 123, 124, 125.) On February 8, 2018, Watkins’ attorney filed a Motion to
Determine Competency and/or Present Mental Condition of Defendant. (Doc. 129.) In that
Motion, defense Counsel stated that Watkins desired mental health testing and stated that
Watkins “has exhibited odd thought processes, such as hyper-rationalization of his actions,
5 •

Case: l:17-cr-00038-SJD Doc #: 50 Filed: 08/22/18 Page: 8 of 16 PAGEID #: 246

factor will vary according to the ‘circumstances surrounding the original entrance of the plea as
well as the motion to withdraw.’” United States v. Dalalli, 651 F. App’x 389,400 (6thCir. ’
2016) (quoting Haygood, 549 F.3d at 1052). ‘
•t JILi r:ANALYSIS
:

n

4V

- In determining whether Watkins can show a fair and just reason for requesting the

withdrawal, the Court will examine each factor in order.

..

*

A. Time Elapsed Between the Plea and the Motion to Withdraw
Watkins entered his guilty plea on Thursday, September 7, 2017: (Doc. 108.) The Court
received the Letterthat the Court interpreted as a pro s<? Motion to Withdraw Plea of Guilty on
December 14, 2017. (Doc.-120.) Thus, 98 days elapsed between his guilty plea and his’
Letter/Motion. Courts properly have denied withdrawal motions based on the same or shorter- 1
delays. See, e.g., Buford, 627 F. App’x at 522 (98-day delay); United States v. Cinnamon, 112 F.
App’x 415, 418^19 (6th Cir. 2004) (90-day delay); United States v. Durham,178 F.3d 796, 799
(6th Cir. 1999) (77-day delay); United States v. Baez, 87 F.3d 805, 808 (6th Cir. 1996) (67-day •
delay); United States v. Goldberg, 862 F.2d 101, 104 (6th Cir. 1988) (55-day delay); United
' t

States v. Spencer, 836 F.2d 236, 239 (6th Cir. 1987) (35-day delay). Thus, the 98-day delay
between Watkins’ plea and Letter/Motion seeking withdrawal weighs against permitting
withdrawal at this juncture.
B. Reason for Failing to Move for Withdrawal Earlier
Watkins contends that he drafted the Letter/Motion on October 12, 2017, but He did not
want to mail it until he visited with Counsel, thereby justifying his failure to seek timely - *
withdrawal. (Doc. 134 at PagelD 521.) This contention is unpersuasive for three reasons. First,
while the Letter is notarized October 12, 2017, the fact remains that the Court did hot receive it'
8

Case: l:17-cr-00038-SJD Doc #: 50 Filed: 08/22/18 Page: 9 of 16 PAG El D #: 247

until December 14, 2017-98 days after Watkins entered his guilty plea. (See Doc. 120 at PagelD
390.) Watkins has had no problem communicating with the Court, even when he was in solitary
confinement, so the delay here lacks explanation. (See Docs. 92, 93, 94, 95, 96, 97, 98, 99, 100,
101, 102, 103, 104.) Second, the October 12, 2017 timing is curious because it happens to be the
day the Initial Presentence Investigation Report (“PSR”) was forwarded to Watkins’ Counsel.
(Doc. 110.) “Defendants are not permitted-to plead guilty and then use their PSR to their
advantage in seeking to withdraw a guilty pleaDalalli, 651 F. App’x at 401 (citing United
States v. Poole, 2 F. App’x 433, 438 (6th Cir. 2001) (district court properly denied the
defendant’s motion to withdraw his guilty plea in part “because courts more closely scrutinize * ■
motions to withdraw guilty pleas which follow significant delays and potential'feview of
presentence reports.”)) Finally, in his Letter/Motion to Withdraw Guilty Plea, Watkins
complains at length about his counsel’s perceived failings. (.See Doc. 120 at PagelD 391-93). If
Watkins found his counsel so lacking, it makes no sense to delay sending his Letter/Motion to
the Court for more than two additional months so that he could meet with Counsel before filing.
Thus, Watkins’ stated reason for delay strains credulity and weighs against permitting him to
withdraw his guilty plea.
C. Whether Watkins Maintained his Innocence
In the brief filed by his newest attorney, it states, without further elaboration or comment,
“Mr. Watkins before, during and immediately after entering the guilty plea maintained and
maintains his innocence to the indictment.” (Doc. 134 at PagelD 522.) While Watkins may
have raised technical challenges or claimed that the indictment was exaggerated, he does not
maintain his innocence either before, during or after he changed his plea.

9

Case: l:17-cr-00038-SJD Doc #: 50 Filed: 08/22/18 Page: 12 of 16 PAGEID #: 250

At no time during the change of plea hearing did Watkins hesitate, act as though he was unsure,
or indicate verbally or in any other way that he was not guilty of the charges to which he was
pleading guilty.
More than three months after the'change of plea hearing, the.Court received Watkins’ pro
se Letter/Motion to Withdraw Guilty Plea. (Doc. 120.) In it, Watkins contends that the witness
tampering allegations are “untrue and exaggerated,” that the penalty enhancement provision of
the Controlled Substance Act for death or serious bodily injury should not apply in his case
because the “but-for cause of death or injury” lacks evidence here, and that a Section 851
sentencing enhancement applies only to “major drug offenders, not low level dealers with low
level drug priors.” {Id. at 390-92.) He does not at any time state that he is innocent of the
charges to which he pled guilty.
A week after the Court received Watkins’ pro se Letter/Motion to Withdraw Guilty Plea,
the Court received three more documents from Watkins. (Docs. 123-125.) In those letters,
Watkins claimed that the informant is unreliable, that prosecutors “exaggerated” charges against
him to force a plea, and that there is insufficient evidence on the murder for hire aspect of the
witness tampering charge. (Doc. 123 at PagelD 399.) Watkins also expressed his belief that .
“had the Prosecutors not err[ed] by not blacking out CS16-11 name on EMS medical papers
given to defendant in discovery a month after being arrested, that defendant would have never
had the opportunity to ‘attempt’ to give anyone info.” {Id. at PagelD 400.) In his final pro se
letter to the Court, Watkins apologizes to the Court and his family for “the allegations that are
true” before alleging that the other allegations against him “are fabricated, and there is
insufficient evidence to convict defendant on the charges.” (Doc. 125 at PagelD 415.)

12

Case: l:17-cr-00038-SJD Doc #: 50 Filed: 08/22/18 Page: 13 of 16 PAGEID #: 251

These are far from the “vigorous and repeated protestations of innocence” necessary to
support the withdrawal of a guilty plea. Dalalli, 651 F. App’x at 402 (quoting Baez, 87 F.3d at
808-09); see also Buford, 627 F. App’x at 521. Rather, Watkins has not maintained his
innocence, and this factor weighs heavily against his.withdrawal request. D. Circumstances Underlying the Plea
Watkins’ counsel contends—without citation-—that Watkins entered a guilty plea
“because he desperately wanted to be released from solitary confinement and he was assured that
if he entered the guilty .plea he would immediately be released from his 23 hour a day, 9 'A
month solitary confinement in isolation.” (Doc. 134 at PagelD 522.) While the Court
acknowledges the difficulties an inmate may face in solitary confinement, counsel’s assertion is
in direct conflict with Watkins’ own statements at the plea hearing.
“A defendant's statements at a plea hearing should be regarded as conclusive [as to truth
and accuracy] in the absence of a believable, valid reason justifying a departure from the
apparent truth of those statements.” United States v. Owens, 215 F. App'x 498, 502 (6th Cir.
2007) (quoting Cinnamon, 112 F. App’x at 419 (alteration in original)). At the plea hearing,
Watkins repeatedly acknowledged that he was pleading guilty of his own free will and because
he was in fact guilty of the two charges to which he pled. {See Doc. 115.) The Court »
specifically asked Watkins in open court, “Has anyone made any promise or assurance that is not
in the plea agreement to persuade you to accept this [plea]?” to which Watkins responded under
oath, “No, ma’am.” {Id. at PagelD 370.) Thus, this factor, too, weighs against allowing
withdrawal in this case.

13

Case: l:17-cr-00038-SJD Doc #: 50 Filed: 08/22/18 Page: 16 of 16 PAGEID #: 254

Ellis, 470 F.3d 275, 280 (6th Cir. 2006) (citation omitted)). This case does not present one of
those rare circumstances.
IV.

CONCLUSION
For the foregoing reasons, Defendant’ s Second Motion to Withdraw Plea of Guilty (Doc.

134 in Case l:16-cr-89 and Doc. 48 in Case 1:17-cr-38) is hereby DENIED.
IT IS SO ORDERED.
Dated: 8/22/18

S/Susan J. Dlott
Judge Susan J. Dlott
United States District Court' : '

16

Case: 19-3193

Document: 43-2

Filed: 01/24/2020

Page: 1

No. ,19-3193/19-3197

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee, .
v.
PHILLIP WATKINS,
Defendant-Appel lant

)'
)
)
)
)
)
)

Jan 24, 2020
DEBORAH S. HUNT, Clerk

ORDER

)

Defendant, pro se, moves to strike the principal brief filed by his court-appointed counsel
and reset the briefing schedule, or in the alternative, for leave to file a pro se supplemental brief.
Further, defendant moves to hold briefing in abeyance.

Defendant cites communication

difficulties and dissatisfaction with the issues briefed by his court-appointed counsel.
There is no right to hybrid representation on appeal. Further, counsel is generally not
obligated to brief issues that in counsel’s reasoned judgment she does not deem meritorious.
Therefore, defendant’s motions to strike the principal brief filed by his court-appointed counsel,
for leave to file a pro se supplemental brief and to hold briefing in abeyance are DENIED. This
appeal shall proceed pursuant to the current briefing schedule in place.
ENTERED PURSUANT TO RULE 45(a)
RULES OF THE SIXTH CIRCUIT

Deborah S. Hunt, Clerk

Case: 19-3193

• V-

Document: 48-2

Filed: 02/19/2020

Page: 1

No. 19-3193/19-3197

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
UNITED STATES OF AMERICA
Plaintiff-Appellee.
v.
PHILLIP WATKINS,
Defendant-Appel lant.

)
)
)
)
)
)
)
)
)

Feb 19, 2020
DEBORAH S. HUNT, Clerk

ORDER

Defendant appeals the district court's judgment of conviction and sentence entered
pursuant to his guilty plea to a charge of conspiracy to possess with intent to distribute mixtures
and substances containing heroin, fentanyl, and carfentanil. Defendant, pro se, moves to dismiss
court-appointed counsel, strike the appellant brief, and for leave to proceed pro se.
Defendant has no constitutional right to proceed on appeal pro se.

United States v.

Montgomery, 592 F. App’x 411,415 (6th Cir. 2014) (citing Martinez v. Court ofAppeal of Cal, 528
U.S. 152, 163 (2000). Given the difficulties of litigating an appeal from prison and the time
constraints presented, it is ORDERED that the motions are hereby DENIED.
Upon review, it is further ORDERED that defendant’s pro se motions to take judicial notice
shall be REFERRED to the ultimate merits panel for whatever consideration, if any, the panel
deems appropriate.
ENTERED PURSUANT TO RULE 45(a)
RULES OF THE SIXTH CIRCUIT

Deborah S. Hunt, Clerk

